Office of Inspector General
U.S. Department of Labor
Office of Audit

                       Rural Missouri, Incorporated
                         Jefferson City, Missouri

                    National Farmworker Jobs Program
                      Grant Number AC-10721-00-55

                 Performance Audit for the Program Year
                    July 1, 2000 through June 30, 2001




                                            Audit Report No. 05-03-004-03-365
                                               Date Issued: September 5, 2003
Rural Missouri, Incorporated National Farmworker Jobs Program Grant



                                                     Table of Contents

                                                                                                                                    Page
Acronyms .............................................................................................................................. ii
Executive Summary .............................................................................................................. 1
Introduction and Background ............................................................................................... 2
Objectives, Scope and Methodology ................................................................................... 4
Findings and Recommendations
           Finding No. 1 – Ineligible Participants .................................................................... 6
           Finding No. 2 – Improper Allocation of Direct Costs ............................................. 8
           Finding No. 3 – Lack of Documentation of Eligibility Determinations ................... 9
Schedules
           Schedule A – Schedule of Costs Reported............................................................. 11
           Schedule B – Schedule of Performance Reported ................................................ 12
Appendices
           Appendix A – Glossary.......................................................................................... 13
           Appendix B – Grantee Response to Draft Report.................................................. 16




DOL-OIG Report No. 05-03-004-03-365                                i
Rural Missouri, Incorporated National Farmworker Jobs Program Grant



                                           Acronyms

                CFR             Code of Federal Regulations
                DOL             U.S. Department of Labor
                DSFP            Division of Seasonal Farmworkers Program
                ESL             English as a Second Language
                ETA             Employment and Training Administration
                IEP             Individual Employment Plan
                JTPA            Job Training Partnership Act
                LMA             Labor Market Area
                MOU             Memorandum of Understanding
                NFJP            National Farmworker Jobs Program
                OIG             Office of Inspector General
                OMB             Office of Management and Budget
                RMI             Rural Missouri, Incorporated
                WIA             Workforce Investment Act
                WIB             Workforce Investment Board




DOL-OIG Report No. 05-03-004-03-365             ii
Rural Missouri, Incorporated National Farmworker Jobs Program Grant



                                    Executive Summary

The Office of Inspector General (OIG) conducted a performance audit of a grant awarded to
Rural Missouri, Incorporated’s (RMI) National Farmworker Jobs Program (NFJP) for
program year July 1, 2000 through June 30, 2001. Under the authority of the Workforce
Investment Act of 1998 (WIA), the Employment and Training Administration (ETA)
awarded the $1,086,542 grant (number AC-10721-00-55) to provide training and services to
an estimated 705 eligible migrant and seasonal farmworkers. In addition, RMI used
carryover funds of $108,014 from program year 1999 to increase the total funding available
to $1,194,556. RMI reported total costs of $1,107,656 for 532 participants.

The objectives of the audit were to determine if the costs reported by RMI for the audit
period were reasonable, allowable, and allocable; RMI complied with rules and regulations
of the NFJP; and grant performance was accurately reported and met the intent and core
performance indicators of the NFJP.

Findings 1 and 2 remain unresolved:

        -   Eleven ineligible participants received training services at a cost of $24,344.
        -   RMI allocated costs to the NFJP grant through the Administrative Fund that
            should have been allocated entirely to another fund. The NFJP grant’s share was
            $1,772.

Finding 3 is resolved and closed:

        -   Documentation of eligibility determinations is not maintained.

We recommend the Assistant Secretary for Employment and Training:

        -   recover $24,344 for training services provided to ineligible participants;
        -   provide RMI with additional guidance that will assist them in determining
            eligibility of NFJP participants;
        -   recover $1,772 of Administrative Fund costs improperly allocated to the NFJP
            grant;
        -   confirm that RMI has controls in place for recording only joint costs to the
            Administrative Fund; and
        -   determine that costs recorded in the Administrative Fund subsequent to our audit
            period were proper.

RMI generally agreed with our findings, and in one case has taken corrective action.


DOL-OIG Report No. 05-03-004-03-365             1
Rural Missouri, Incorporated National Farmworker Jobs Program Grant



                              Introduction and Background

The National Farmworker Jobs Program

The Division of Seasonal Farmworker Programs (DSFP), located in the Department of
Labor’s (DOL) ETA, is responsible for administering the NFJP. The intent of NFJP, under
section 167 of WIA, is to strengthen the ability of eligible migrant and seasonal farmworkers
and their families to achieve economic self-sufficiency through job training and other
employment related services. Assistance from the NFJP is accessed through the NFJP
grantee partners and local One-Stop Centers.

Services available under the NFJP include skill assessment, job-search assistance, career
planning, and emergency assistance. More intensive services such as basic education and
job training are designed to help individuals acquire skills to obtain employment outside of
farm work or better agricultural jobs. These services are available to economically
disadvantaged migrant or seasonal farmworkers who are engaged in agricultural work in the
United States.

Funds to support these services are awarded competitively to grantees, which provide
services at the local level.


Rural Missouri, Incorporated

RMI is a statewide based 501(c)(3) non-profit organization, headquartered in Jefferson City,
Missouri, which has provided employment and training services to Missouri’s rural
population since 1966. RMI also administers loan programs through the U.S. Small
Business Administration and the Farmers Home Administration to provide loans to
businesses throughout most of the State of Missouri. RMI has field representatives available
in offices throughout Missouri, including Malden, Rolla, Hannibal, St. Joseph, Sedalia,
Moberly, and Hermitage.

The State of Missouri is divided into fourteen Labor Market Areas (LMAs), each of which
has a Workforce Investment Board (WIB). RMI has Memorandums of Understanding
(MOUs) with six of these 14 WIBs, and a mutual agreement with a seventh WIB. RMI does
not have MOUs with the State of Missouri, Southwest Region LMA, or the South Central
LMA. In addition, RMI does not participate in five of the LMAs that serve the metropolitan
areas of Kansas City and St. Louis.

Each LMA provides a One-Stop Center delivery system to make a comprehensive range of
employment, training, and related services accessible in one location, as required by WIA.

DOL-OIG Report No. 05-03-004-03-365             2
Rural Missouri, Incorporated National Farmworker Jobs Program Grant


RMI is involved in the Missouri One-Stop Centers and participates in developing and
maintaining effective methods to coordinate, partner, and provide core services to One-Stop
and/or RMI applicants.

Most of the One-Stop Centers have a resource room where they provide core services
including information about the various programs available, career counseling, job search
information, labor market information, job vacancies, and financial aid information. In
addition to core services, RMI provides eligible migrant and seasonal farmworkers with
related assistance, intensive and training services, depending on the initial assessment and
resources available under WIA.

RMI was awarded a grant of $1,086,542 (number AC-10721-00-55) to provide training and
services to an estimated 705 eligible migrant and seasonal farmworkers. The grant covered
program year July 1, 2000 through June 30, 2001. In addition, RMI used carryover funds of
$108,014 from program year 1999 to increase the total funding available to $1,194,556.

RMI reported costs of $1,107,656 and provided services to 532 participants during the audit
period. A detail of the costs reported is present in the Schedule of Costs Reported
(Schedule A), and the performance reported is presented in the Schedule of Performance
Reported (Schedule B).




DOL-OIG Report No. 05-03-004-03-365             3
Rural Missouri, Incorporated National Farmworker Jobs Program Grant



                          Objectives, Scope and Methodology

Objectives

The objectives of the performance audit were to determine if:

    •   costs reported by RMI were reasonable, allowable, and allocable under the cost
        principles set forth in the Office of Management and Budget (OMB) Circular A-122;
    •   RMI complied with rules and regulations of the NFJP; and
    •   performance of the NFJP was accurately reported by RMI, in accordance with ETA
        reporting requirements, and met the intent and core performance indicators of the
        NFJP.

Scope and Methodology

We audited reported costs totaling $1,107,656 and performance for 532 participants under
RMI’s NFJP for program year July 1, 2000 through June 30, 2001.

Our audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of the accounting
records and other accounting procedures, as we considered necessary in the circumstances.

Our audit was performed using the criteria we considered relevant. These criteria included
those established by the Federal Government including the following:

    •   The Workforce Investment Act of 1998;
    •   20 Code of Federal Regulations (CFR) Part 669, National Farmworker Jobs
        Program under Title I of the WIA;
    •   29 CFR Part 95, Uniform Administrative Requirements for Grants and Agreements
        with Institutions of Higher Education, Hospitals, and Non-Profit Organizations;
    •   OMB Circular A-122, Cost Principles for Non-Profit Organizations; and
    •   Various Farmworker Bulletins issued by the DSFP.

To meet the aforementioned objectives, we reviewed management controls over relevant
transaction cycles. Our work on established management controls included obtaining and
reviewing policies and procedures manuals, interviewing key personnel, and reviewing
selected transactions to observe the controls in place. Our testing related to management
controls was focused only on the controls related to our audit objectives of reviewing the
reported cost and performance data and was not intended to form an opinion on the
adequacy of management controls, and we do not render such an opinion. Weaknesses


DOL-OIG Report No. 05-03-004-03-365             4
Rural Missouri, Incorporated National Farmworker Jobs Program Grant


noted in our testing are discussed in the Findings and Recommendations section of this
report.

In order to determine compliance with the above-mentioned laws and regulations, we
performed detailed tests of a judgmental sample of financial transactions and tested a
statistical sample of participants who were enrolled in the program during our audit period.
Our detailed tests of transactions included both analytical review and substantive tests of
accounts. Our testing related to compliance with laws and regulations was focused only on
the laws and regulations relevant to our audit objectives of reviewing the reported cost and
performance data and was not intended to form an opinion on the compliance with laws and
regulations as a whole, and we do not render such an opinion. Instances of non-compliance
are discussed in the Findings and Recommendations section of this report.

Our fieldwork was performed at RMI headquarters in Jefferson City, Missouri during the
period June through July 2002. We also visited regional offices in Rolla and Moberly,
Missouri, on July 29 and July 30, 2002.




DOL-OIG Report No. 05-03-004-03-365             5
Rural Missouri, Incorporated National Farmworker Jobs Program Grant



                            Findings and Recommendations

Finding No. 1 – Ineligible Participants

During program year 2000, RMI provided training and services to 532 participants. To
determine how effective RMI’s management controls over selecting eligible participants
were, we selected a sample of 118 participants. Fifty-eight of these received related
assistance services only, and the remaining 60 received training only. Of these, we
determined that 11 participants were ineligible to receive NFJP services. The amount of
training assistance, in the form of scholarships, provided to these ineligible participants
totaled $24,344.

Ten of the ineligible participants were identified as farmworkers on their NFJP application.
One additional ineligible participant was identified as a dependent on the application.
However, all were actually dependents of individuals who did not meet the definition of
farmworker. For example, eight participants were dependents of farm owners. The other
three participants were dependents of parents who were not farmworkers.

Farmworker Bulletin 00-02, effective July 1, 2000, states the following:

        To qualify as eligible for participation in the National Farmworker Jobs
        Program (NFJP) under WIA, Section 167 and 20 CFR 669, an individual on
        the date of application for enrollment must be: an “eligible farmworker” or a
        “dependent” of an eligible farmworker….

        “eligible farmworker” is a person who, during the eligibility determination
        period is a migrant farmworker or seasonal farmworker and whose family is
        disadvantaged…

        “Dependent” means an individual who (1) was claimed as a dependent on the
        qualifying farmworker’s federal income tax return for the previous year, or
        (2) is the spouse of the qualifying farmworker, or (3), if not claimed as a
        dependent for federal income tax purposes, is able to establish: (A) the
        relationship as the farmworker’s child, grandchild…parent,
        grandparent…and (B) the receipt of over half of his/her total support from the
        eligible farmworker’s family during the eligibility determination period.”…

To demonstrate that serving ineligible participants has been an ongoing practice, our audit
identified an additional 25 participants who entered the program as part of the Job Training
Partnership Act (JTPA) prior to July 1, 2000, and were identified as dependents, but not
eligible farmworkers. These individuals are not questioned in this audit because there was

DOL-OIG Report No. 05-03-004-03-365             6
Rural Missouri, Incorporated National Farmworker Jobs Program Grant


no clear guidance regarding dependents at the time of their enrollment and prior to
Farmworker Bulletin 00-02. Rather, all participants enrolled in JTPA as of June 30, 2000,
were granted automatic eligibility under NFJP per the Bulletin.

RMI management believes that individuals qualify as farmworkers if they are living at home
with their parent(s) or guardian(s), and are receiving wages for working on the family farm
while attending school. RMI management stated that this matter has been an issue in several
states, and that ETA has not provided sufficient guidance in determining eligibility for these
individuals. ETA has been drafting additional guidance for determining eligibility
(including the issue of individuals working for their parent(s) or guardian(s) on the family
farm while attending school), but had not yet issued a final version at the time of our audit.

Recommendations

We recommend the Assistant Secretary for Employment and Training:

        -   recover the questioned costs totaling $24,344; and
        -   provide RMI with additional guidance that will assist them in determining
            eligibility of NFJP participants – especially individuals working on the family
            farm while living at home with their parent(s) or guardian(s) while attending
            school.

RMI’s Response

RMI interpreted the Farmworker Bulletin quoted above to mean that individuals are made
eligible based on their work history and their total family income – without regard to their
“dependency” status, and has enrolled participants under that assumption. RMI also
reiterated their position at the time of the audit, that the Bulletin offers no clarification about
dependency status. Several policy guidance DRAFTS were developed, but none have been
issued as final Policy Guidance.

Since the time of the Bulletin indicating that individuals who could be considered
farmworkers but who were also dependents of non-farmworkers were ineligible for program
services, RMI has discontinued serving individuals who fall into that category. RMI agrees
that the 11 questioned participants were dependents of non-farmworkers, although at the
time of enrollment, they did not feel they were determining eligibility inappropriately. The
definition of “eligible farmworker” had not changed since the inception of JTPA in 1983
and was never questioned in previous monitoring visits by DOL staff.




DOL-OIG Report No. 05-03-004-03-365             7
Rural Missouri, Incorporated National Farmworker Jobs Program Grant


OIG’s Conclusion

RMI understands that participants may be a dependent of a farmworker, but doesn’t
understand that the 11 we questioned were not dependents of farmworkers. Eight of the
participants were dependents of farm owners. The other three were dependents of parents
who were not farmworkers.

This finding remains unresolved.


Finding No. 2 – Improper Allocation of Direct Costs

RMI has a cost allocation plan to allocate common joint costs on a monthly basis. Costs
determined to be common joint costs are recorded in the Administrative fund and are
allocated to the appropriate funds based on the ratio of administrative hours charged to each
fund.

We selected a judgmental sample of 20 non-personnel transactions from those recorded in
the Administrative fund in two months of our audit period.

We questioned 9 of these transactions totaling $9,516, which should have been charged
directly to RMI’s Loan Program fund(s). The total amount of these transactions allocated to
the NFJP fund was $1,772.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A,
Paragraph B.1. states the following:

        Direct costs are those that can be identified specifically with a particular final
        cost objective, i.e., a particular award, project, service, or other direct activity
        of an organization…Costs identified specifically with awards are direct costs
        of the awards and are to be assigned directly thereto. Costs identified
        specifically with other final cost objectives of the organization are direct
        costs of those cost objectives and are not to be assigned to other awards
        directly or indirectly.

We believe the direct costs of the Loan Program were recorded to the Administrative fund in
error. However, this occurred because there is no routine management review of the joint
costs recorded in the Administrative Fund and allocations to the appropriate funds.

Recommendation

We recommend the Assistant Secretary for Employment and Training:

DOL-OIG Report No. 05-03-004-03-365             8
Rural Missouri, Incorporated National Farmworker Jobs Program Grant


        -   recover the questioned costs totaling $1,772;
        -   confirm that RMI has controls in place for recording only joint costs to the
            Administrative Fund; and
        -   determine that costs recorded in the Administrative Fund subsequent to our audit
            period were proper.

RMI’s Response

Upon notification of the error in allocation of joint costs, RMI immediately changed the
method of charging expenses by direct costing appropriate items to the loan program. RMI
management is now reviewing the cost allocations quarterly to ensure expenses are direct
charged and allocated in accordance with acceptable cost principles. During the program
year in question, July 2000 through June 2001, administrative expenses were $159,168 of
the total grant expenditures of $1,107,656, or 14.36%, well within the regulatory limit of
15%.

OIG’s Conclusion

While RMI has improved internal controls by having management review the cost
allocations quarterly, we believe this review should occur monthly, before the costs are
posted.

RMI provided no documentation that they have reduced reported costs for the amount
incorrectly charged to the NFJP, instead of the Loan Program. As a result, this finding
remains unresolved.


Finding No. 3 – Lack of Documentation of Eligibility Determinations

RMI does not maintain a master list of NFJP applicants who were determined to be
ineligible. The majority of NFJP ineligible applicants are determined to be ineligible by the
initial interview with an RMI field representative prior to completing an application.

As a result, RMI management is unable to review the eligibility determinations made by the
field representatives to ensure the determinations were proper. In addition, documentation is
not available to provide program performance data (i.e., reasons for the applicants being
determined ineligible) or to identify weaknesses or problem areas that could perhaps be
improved, if the data were maintained.

Farmworker Bulletin 00-02 states the following: “The grantee representative who interviews
applicants for the purpose of determining eligibility, must make determinations of eligibility
based on all the available information. Those employees should sign a statement of
eligibility determination on every completed application.”
DOL-OIG Report No. 05-03-004-03-365             9
Rural Missouri, Incorporated National Farmworker Jobs Program Grant


Recommendation

We recommend the Assistant Secretary for Employment and Training direct RMI to
complete applications for all potential NFJP participants and save them for a reasonable
period, to document all eligibility determinations.

RMI’s Response

RMI believes there was a misunderstanding when the auditors questioned RMI staff about
maintaining a master list of ineligible applicants. Although RMI does not maintain a record
of individuals who call to ask about the program, they do maintain records of all individuals
who complete an application and are found to be ineligible for the program.

When an individual inquires about the program by phone or through another agency, he/she
is given a “pre-application” to complete and submit to the RMI Field Representative who
serves their area. Once the pre-application is received by RMI staff, the individual is
notified and told whether or not he/she is eligible for the program. These pre-applications
are kept on file by the RMI Field Representatives who receive them.

OIG’s Conclusion

The audit team was unaware that most of the pre-applications are maintained by the Field
Representatives. Consequently, the audit team didn’t review them at the two sites they
visited.

During the exit interview, we observed a file of applications received and maintained at RMI
headquarters for those determined to be ineligible. Based on our observations, we don’t
intend to request copies of the pre-applications maintained by the Field Representatives. We
consider this recommendation to be resolved and closed.




DOL-OIG Report No. 05-03-004-03-365            10
Rural Missouri, Incorporated National Farmworker Jobs Program Grant


                                                                                Schedule A

                               Rural Missouri, Incorporated
                                Schedule of Costs Reported
                     For the Period July 1, 2000 through June 30, 2001



                                                                        % Of
                               Function                    Reported
                                                                        Total
                 Program Costs
                  Related Assistance                       $   62,953     6%
                  All Other Program Services                  885,535    80%
                  Total Program Costs                         948,488    86%
                 Administrative Costs                         159,168    14%
                 Total                                     $1,107,656   100%




DOL-OIG Report No. 05-03-004-03-365            11
Rural Missouri, Incorporated National Farmworker Jobs Program Grant


                                                                                       Schedule B

                               Rural Missouri, Incorporated
                            Schedule of Performance Reported
                     For the Period July 1, 2000 through June 30, 2001



                                                                               % Of
                                Description*                          Totals
                                                                               Total
              Participation & Termination Summary
              Participants Carried Over                                174      33%
              New Participants                                         358     67%
              Total Participants                                       532     100%
              Total Terminations                                       348      65%
              Total Current Participants at June 30, 2001              184      35%
              Participant Outcomes
              Entered Unsubsidized Employment                          114     33%
              Completed Training Services                              133     38%
              Participant Enrollments in Program Services
              Core Services                                            532     100%
              Intensive Services                                       320     60%
              Training Services                                        320     60%
              Related Assistance Services                              212     40%


* See Glossary on pages 11-13 for definitions of these categories.




DOL-OIG Report No. 05-03-004-03-365            12
Rural Missouri, Incorporated National Farmworker Jobs Program Grant


                                                                               Appendix A


                                            Glossary

Chronic Unemployment

During the 12-month eligibility period, the farmworker experienced or faced periods as an
“unemployed individual” as defined by the Workforce Investment Act.

Core Services

RMI is involved in the Missouri One-Stop Centers and participates in developing and
maintaining effective methods to coordinate, partner, and provide core services to One-Stop
and/or RMI applicants. Most of the One-Stop Centers have a resource room where they
provide core services including information about the various programs available, career
counseling, job search information, labor market information, job vacancies, and financial
aid information. RMI has also developed a web site where applicants can submit an
application on-line and send it directly to RMI for review.

Disadvantaged

A person whose farmworker family income during the eligibility determination period does
not exceed the higher of either the HHS poverty line or 70 percent of the Lower Living
Standard Income Level that is in effect on the date of application.

Eligible Farmworker

A person who during the 12-month eligibility determination period is a migrant or seasonal
farmworker and whose family is disadvantaged.

Emergency Assistance

Assistance that addresses immediate needs of farmworkers and their families, provided by
National Farmworker Jobs Program grantees. Except for evidence to support legal working
status in the United States and Selective Service registration, where applicable, the
applicant’s self-attestation is accepted as eligibility for emergency assistance.




DOL-OIG Report No. 05-03-004-03-365            13
Rural Missouri, Incorporated National Farmworker Jobs Program Grant


Individual Employment Plan (IEP)

The grantee develops this plan in partnership with the participant. The combination of
services chosen with the participant must be consistent with the results of any objective
assessment, responsive to the expressed goals of the participant, and must include periodic
evaluation of planned goals and a record of accomplishments in consultation with the
participant.

Intensive Services

Intensive services may include comprehensive assessment of skill levels, development of an
IEP, individual or group counseling and career planning, case management for those who
are entering a training program and English-as-a-Second language.

Migrant Farmworker

A seasonal farmworker whose agricultural labor requires travel to a job site such that the
farmworker is unable to return to a permanent place of residence within the same day.

National Farmworker Jobs Program

Nationally administered workforce investment program for farmworkers established by the
Workforce Investment Act, Section 167, as a required partner of the One-Stop system.

Participants Carried Over

This includes the total number of participants enrolled in the program on the last day of the
previous program year whose participation continued in the current program year. This
number remains constant for the program year.

Related Assistance Services

Short-term forms of direct assistance designed to assist farmworkers and their families to
retain or stabilize their agricultural employment or enrollment in the NFJP. This may
include such services and activities as emergency assistance, workplace safety instruction,
housing development assistance, English language and basic education classes for
participants not enrolled in intensive or training services, and other supportivc services
described in the grant plan.




DOL-OIG Report No. 05-03-004-03-365            14
Rural Missouri, Incorporated National Farmworker Jobs Program Grant


Seasonal Farmworker

A farmworker who during the 12-month eligibility determination period has been primarily
employed in agricultural labor that is characterized by chronic unemployment or
underemployment.

Termination

This includes the cumulative number of participants exiting the program for any reason
during the program year. Participants exit the program after the six-month follow-up period
or when it is determined they should no longer receive services funded under the National
Farmworker Jobs Program.

Training Services

These services include classroom training and on-the-job training; job skills readiness;
including English-as-a-Second Language; referrals to GED/Adult Literacy; case
management; supportive services during training services; job development and referral; and
follow-up.

Underemployment

During the 12-month eligibility period, the farmworker experienced or faced the periods of
temporary, seasonal, or part-time employment associated with agricultural labor when
he/she did not receive a year-round salary.




DOL-OIG Report No. 05-03-004-03-365            15
Rural Missouri, Incorporated National Farmworker Jobs Program Grant


                                                                      Appendix B


                           Grantee Response to Draft Report




DOL-OIG Report No. 05-03-004-03-365            16
Rural Missouri, Incorporated National Farmworker Jobs Program Grant




DOL-OIG Report No. 05-03-004-03-365            17
Rural Missouri, Incorporated National Farmworker Jobs Program Grant




DOL-OIG Report No. 05-03-004-03-365            18
Rural Missouri, Incorporated National Farmworker Jobs Program Grant




DOL-OIG Report No. 05-03-004-03-365            19
